TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Trends in Compliance Activities
                              Through Fiscal Year 2012



                                         August 23, 2013

                              Reference Number: 2013-30-078




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


TRENDS IN COMPLIANCE ACTIVITIES                        Enforcement revenue collected declined by
THROUGH FISCAL YEAR 2012                               9 percent in Fiscal Year 2012, from $55.2 billion
                                                       to $50.2 billion. This has decreased in two
                                                       straight years and is 13 percent less than the
Highlights                                             $57.6 billion collected in Fiscal Year 2010. The
                                                       13 percent reduction in enforcement revenue
Final Report issued on August 23, 2013                 correlates to the 14 percent reduction in the
                                                       number of enforcement personnel.
Highlights of Reference Number: 2013-30-078            IRS Collection function activities showed mixed
to the Internal Revenue Service, Office of the          results for Fiscal Year 2012. For the third
Deputy Commissioner for Services and                   straight year, revenue collected on Taxpayer
Enforcement.                                           Delinquent Accounts by the IRS Collection Field
                                                       function increased. However, collections by the
IMPACT ON TAXPAYERS
                                                       Automated Collection System declined for the
This report is a compilation of statistical            first time in four years. The IRS continues to
information reported by the IRS. The data              receive more new Taxpayer Delinquent
presented in this report provide taxpayers and         Accounts than it closes. The amount owed in
stakeholders with information about how the IRS        the Queue increased 22 percent in Fiscal
focuses its compliance resources and the impact        Year 2011 ($56.2 billion) and 12 percent in
of those resources on revenue and compliance           Fiscal Year 2012 ($63.1 billion) and has grown
over time.                                             46 percent over the past five years.

WHY TIGTA DID THE AUDIT                                The Examination function’s recent decrease in
                                                       revenue agents and tax compliance officers
TIGTA conducted this review in response to             contributed to an overall decrease in
continuing stakeholder interest in the analysis        examinations. This reduction is attributable to
and trending of Collection and Examination             decreased examinations of individual tax
function activities. The objective was to provide      returns. The number of corporate, partnership,
various statistical information regarding              and S corporation examinations increased
Collection and Examination function activities.        during Fiscal Years 2011 and 2012. The
                                                       no-change rates for examinations of individual
WHAT TIGTA FOUND
                                                       income tax returns by revenue agents in Fiscal
During Fiscal Years 2011 and 2012, the IRS             Year 2012 was 11 percent but remained lower
encountered challenges that included                   than the no-change rates reported in Fiscal
administering recent legislative changes within        Year 2008.
an environment of decreasing resources. For
example, approximately 50 of the 500 Affordable        WHAT TIGTA RECOMMENDED
Care Act provisions add to or amend the Internal       TIGTA made no recommendations in this report.
Revenue Code. At the same time, the IRS                IRS officials were provided an opportunity to
operated under a continuing resolution for Fiscal      review the draft report and did not provide any
Year 2012 that funded it at a little more than         comments.
$11.8 billion, which is a 2.7 percent reduction
since Fiscal Year 2010.
Since Fiscal Year 2010, approximately
8,000 full-time IRS positions have been lost—
about 5,000 from front-line enforcement
personnel. In addition to offering early
retirements and buyouts, IRS records indicate
that more than one-third of executives and
nearly 20 percent of nonexecutive managers are
currently eligible for retirement.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 23, 2013


 MEMORANDUM FOR OFFICE OF THE DEPUTY COMMISSIONER FOR SERVICES
                AND ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Trends in Compliance Activities Through
                             Fiscal Year 2012 (Audit # 201330046)

 This report presents the results of our review to provide various statistical information regarding
 Collection and Examination function activities. This audit was added to our Fiscal Year 2013
 Annual Audit Plan and addresses the major management challenge of Tax Compliance
 Initiatives.
 Although the Treasury Inspector General for Tax Administration made no recommendations in
 this report, Internal Revenue Service (IRS) officials were provided an opportunity to review the
 draft report. IRS management did not provide any comments.
 Copies of this report are also being sent to the IRS managers affected by this report. If you have
 any questions, please contact me or Augusta R. Cook, Acting Assistant Inspector General for
 Audit (Compliance and Enforcement Operations).
                                                    Trends in Compliance Activities
                                                       Through Fiscal Year 2012




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          Challenges Affecting the Internal Revenue Service During
          Fiscal Years 2011 and 2012 .......................................................................... Page 2
          Collection Function Compliance Activities Show
          Mixed Results ............................................................................................... Page 7
          Examination Function Compliance Activities Show
          Mixed Results ............................................................................................... Page 11

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Detailed Charts of Statistical Information ........................... Page 22
          Appendix V – Prior Treasury Inspector General for
          Tax Administration Compliance Trends Reports ......................................... Page 50
          Appendix VI – Glossary of Terms ................................................................ Page 51
               Trends in Compliance Activities
                  Through Fiscal Year 2012




              Abbreviations

ACA     Patient Protection and Affordable Care Act of 2010
IRS     Internal Revenue Service
TDA     Taxpayer Delinquent Account
TDI     Taxpayer Delinquency Investigation
TIGTA   Treasury Inspector General for Tax Administration
                                         Trends in Compliance Activities
                                            Through Fiscal Year 2012




                                         Background

Although the vast majority of Americans pay their Federal taxes, there is still a sizeable Tax
Gap—the difference between what is owed in taxes each year and what is paid voluntarily and
on time. The second goal of the Internal Revenue Service’s (IRS) Strategic Plan for Fiscal
Years 2009 to 2013 is to enforce the law to ensure everyone meets their obligation to pay taxes.
The Strategic Plan states:
       ... We owe it to all the citizens who meet their civic responsibility to pay taxes to be vigorous in
       pursuing individuals who are not paying what they owe.
       We will focus on our current enforcement initiatives while seeking other innovative solutions to
       reduce the Tax Gap more effectively. We can hone our enforcement techniques by adding new
       tools, such as additional information reporting, soft notices and self-correction to our more
       traditional enforcement tools. We must also resolve enforcement issues at the earliest moment
       possible. This provides clarity and certainty to taxpayers, and frees up our resources to focus on
       the next important issues.

The Treasury Inspector General for Tax Administration’s (TIGTA) reports on
trends in compliance activities
Stakeholders continue to have interest in the compliance trends of the IRS. TIGTA conducted
this review of nationwide compliance statistics for the IRS’s Collection and Examination
function activities from Fiscal Years 2000 through 2010. This is our 13th report; Appendix V
presents a list of these reports.
Our data analyses were performed in TIGTA’s Philadelphia, Pennsylvania, office during the
period April through June 2013. Nationwide data from IRS management information systems
were used during our review. Due to time and resource constraints, we did not audit IRS
systems to validate the accuracy and reliability of that information. Also, we did not assess
internal controls because doing so was not applicable within the context of our objective. Our
analyses were limited to identifying changes and trends in IRS data.
Most of the calculations throughout the report and Appendix IV are affected by rounding. All
initial calculations were performed using the actual numbers rather than the rounded numbers
that appear in the report. Much of the data included in this report updates prior TIGTA reports
on compliance trends.
Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. Detailed charts and tables referred to
in the body of this report are included in Appendix IV. A glossary of terms is included in
Appendix VI.


                                                                                                       Page 1
                                          Trends in Compliance Activities
                                             Through Fiscal Year 2012




                                    Results of Review

Challenges Affecting the Internal Revenue Service During Fiscal
Years 2011 and 2012
One of the challenges the IRS confronts each year is the implementation of new tax laws. The
passage of the Patient Protection and Affordable Care Act of 20101 and the Health Care and
Education Reconciliation Act of 20102 (collectively referred to as the Affordable Care Act)
represents the largest set of tax law changes in 20 years. Implementing the Affordable Care Act
(ACA) presents significant new challenges to the IRS. It will require considerable new
processes and resources.
Nevertheless, between Fiscal Years 2010 and 2012, the IRS’s budget decreased almost 3 percent,
putting constraints on already limited resources. Additionally, enforcement revenue decreased,
while the Tax Gap estimate increased.

Implementation of the ACA
The Patient Protection and Affordable Care Act of 2010 and the Health Care and Education
Reconciliation Act of 2010 were signed into law in March 2010 and contain over 500 provisions.
Of the 500 provisions, approximately 50 were added to or amended the Internal Revenue Code.3
The IRS is required to administer these provisions by:
     Providing incentives and tax breaks to individuals and small business to offset healthcare
      expenses.
     Imposing penalties for individuals and businesses that do not obtain health care coverage
      for themselves or their employees.
Figure 1 shows effective legislation dates for the approximate 50 provisions affecting the IRS.4
During Fiscal Years 2011 and 2012, the IRS was responsible for implementing six of the
provisions. In Fiscal Year 2012, TIGTA reported that the IRS developed appropriate plans to




1
  Pub. L. No. 111-148, 124 Stat. 119 (2010).
2
  Pub. L. No. 111-152, 124 Stat. 1029 (2010).
3
  See Appendix VI for a glossary of terms.
4
  Implementation of the ACA employer mandate was recently delayed. We did not assess the impact of the delay on
the timeline in Figure 1.
                                                                                                       Page 2
                                          Trends in Compliance Activities
                                             Through Fiscal Year 2012



implement tax-related provisions of the ACA using well-established methods for implementing
tax legislation.5
                    Figure 1: Number of ACA Provisions by Fiscal Year




                      Source: TIGTA analysis of ACA Provisions.

The ACA legislation provided $1 billion in funding to the Health Insurance Reform
Implementation Fund within the Department of Health and Human Services to be used for
Federal administrative expenses necessary to carry out the requirements of the ACA. The
Department of Health and Human Services provided to the IRS $168 million and $299 million
from this fund in Fiscal Years 2011 and 2012, respectively. Moreover, the IRS Fiscal Year 2012
budget justification requested an additional $473 million to administer ACA programs; however,
this was not funded. The IRS also absorbed some of the costs and work associated with
implementing ACA provisions into its normal business operations and budget.
Initial steps to implement the provisions related to tax administration involve numerous actions
such as revising or developing new forms, publications, and instructions; creating new computer
programs; training IRS employees; revising Internal Revenue Manuals; issuing revenue
procedures and regulations; and providing outreach to taxpayers and tax professionals.




5
 TIGTA, Ref. No. 2012-43-064, Affordable Care Act: Planning Efforts for the Tax Provisions of the Patient
Protection and Affordable Care Act Appear Adequate; However, the Resource Estimation Process Needs
Improvement (June 2012).
                                                                                                        Page 3
                                           Trends in Compliance Activities
                                              Through Fiscal Year 2012



A decrease in resources
After increasing for three years, the IRS budget began decreasing in Fiscal Year 2011. Between
Fiscal Years 2010 and 2012, the IRS’s budget decreased $329 million (2.7 percent), from
$12.1 to $11.8 billion. This trend continued into Fiscal Year 2013. The combination of a
continuing resolution and sequestration further reduced the IRS’s budget by $600 million in
Fiscal Year 2013.
This has directly affected the number of IRS employees. TIGTA reported that the IRS was
unable to meet the enacted budget for Fiscal Year 2012 without substantially reducing the size of
its workforce.6 In Fiscal Year 2012, the agency offered buyouts to 7,000 of its employees and
more than 1,200 accepted. The IRS also instituted a hiring freeze, filling job openings on an
“exception only” basis.
Since Fiscal Year 2010, approximately 8,000 full-time IRS positions have been lost—5,000 from
front-line enforcement personnel. In addition to offering early retirements and buyouts, IRS data
indicate that over 30 percent of executives and nearly 20 percent of nonexecutive managers are
currently eligible for retirement. This number is expected to increase to 70 percent of executives
and almost 50 percent of nonexecutive managers by Fiscal Year 2017.
The overall number of IRS employees fell from a five-year high of 107,622 employees at the end
of Fiscal Year 2010 to 97,942 employees at the end of Fiscal Year 2012 (a 9 percent reduction).7
This reduction was preceded by a 6 percent gain in the number of employees from Fiscal Year
2008 (101,759) to 2010 (107,622).
As reported in Fiscal Year 2011, hiring initiatives during Fiscal Years 2009 and 2010 led to the
largest numbers of IRS examination enforcement personnel8 (revenue agents and tax compliance
officers) since Fiscal Year 1999.9 As shown in Figure 2, those gains have been more than offset
by declines over the past two years.




6
  TIGTA, Ref. No. 2013-10-017, Improvements Have Been Made to Address Human Capital Issues, but Continued
Focus Is Needed (Jan. 2013).
7
  This includes part-time and full-time employees.
8
  Collection and Examination function staffs located in field offices, excluding management and overhead staff.
9
  TIGTA, Ref. No. 2011-30-071, Trends in Compliance Activities Through Fiscal Year 2010 (July 2011).
                                                                                                         Page 4
                                          Trends in Compliance Activities
                                             Through Fiscal Year 2012



                         Figure 2: Enforcement Staffing by Fiscal Year




                Source: TIGTA analysis of Collection Report 5000-2 and Table 37 Examination Time Reports.
A decline in enforcement revenue and increase in the Tax Gap
In addition to implementing new and amended tax legislation, the IRS must focus on improving
taxpayer compliance and collecting unpaid tax liabilities. Since Fiscal Year 1990, the
Government Accountability Office has included enforcement of tax laws as one of the
30 high-risk areas in the Federal Government.10 The Government Accountability Office states:
          Given that the Tax Gap has been persistent and dispersed across different types of taxes and
          taxpayers, coupled with tax code complexity and a globalizing economy, reducing the Tax Gap
          will require applying multiple strategies over a sustained period of time.

For Tax Year 2001, the IRS estimated the Tax Gap at $345 billion. In Fiscal Year 2012, the IRS
estimated the Tax Gap for Tax Year 2006 to be $450 billion, a growth of 30 percent. The IRS
attributed the growth to the increase in total tax liabilities from Tax Year 2001 to 2006 and not to
any significant change in taxpayer compliance rates.
Enforcement revenue collected declined by 9 percent from Fiscal Year 2011 to 2012—from
$55.2 billion to $50.2 billion.11 This amount (not adjusted for inflation) has decreased
two straight years and is 13 percent less than the amount in Fiscal Year 2010. The 13 percent
reduction in enforcement revenue correlates with the 14 percent reduction in the number of
enforcement personnel.
Figure 3 shows that the total dollars received and collected (gross collections) increased for the
second straight year. Since Fiscal Year 2010, gross collections have increased by 8 percent to

10
     GAO, GAO-13-283, HIGH RISK SERIES: An Update (Feb. 2013).
11
     See Appendix IV, Figure 2.
                                                                                                      Page 5
                                            Trends in Compliance Activities
                                               Through Fiscal Year 2012



$2.52 trillion in Fiscal Year 2012. However gross collections are still 8 percent lower than the
10-year high in Fiscal Year 2008.
                                      Figure 3: Gross Collections




                  Source: TIGTA analysis of the IRS Data Book.

An increase in the number of tax returns filed
The number of tax returns filed increased 2.1 million, from 184.6 million in Calendar Year 2011
to 186.7 million in Calendar Year 2012. Since Calendar Year 2008, the number of returns filed
has increased by 2 percent.12
In Fiscal Year 2013, the IRS reported that, for the first time, the number of individual tax returns
filed electronically topped 80 percent and approximately 37 percent of business returns were
filed electronically. Legislation13 applicable to return preparers has contributed to the increases.
In Fiscal Year 2011, the IRS began requiring specific preparers, based upon their expected
number of filings, to file returns electronically.14




12
   Filings data is from the IRS Databook, which presents examination coverage and provides return filings on a
calendar year basis because examination activity is generally associated with returns filed in the previous calendar
year.
13
   Worker, Homeownership, and Business Assistance Act of 2009, Pub. L. No.111-92, 123 Stat. 2984, 2996
(Nov. 6, 2009).
14
   The IRS did provide a number of exceptions to the mandate for those preparers who could not file electronically.
                                                                                                             Page 6
                                              Trends in Compliance Activities
                                                 Through Fiscal Year 2012



Collection Function Compliance Activities Show Mixed Results
Total dollars collected on Taxpayer Delinquent Accounts (TDA) by the Automated Collection
System and Collection Field function peaked in Fiscal Year 2011 at $6.6 billion but decreased by
more than 7 percent to $6.1 billion in Fiscal Year 2012. Fewer Taxpayer Delinquent
Investigations (TDI) are being closed, and the Queue increased during Fiscal Year 2012 to
1.1 million accounts—2 percent more than Fiscal Year 2011. However, the IRS has reduced the
number of cases shelved or surveyed in accounts receivable.
New TDA receipts continue to outpace closures. The IRS has also reduced its use of liens,
levies, and seizures. Considering the trend in decreasing resources and increasing TDAs, the
Collection function will need to achieve efficiency and productivity gains to ensure that the Tax
Gap does not widen.

TDA Collections
          Collections on TDAs by the Collection Field function increased for the third straight
           year. During Fiscal Year 2012, the total dollars collected increased by more than
           1 percent to $3.3 billion.
          Collections on TDAs by the Automated Collection System declined for the first time in
           four years, decreasing 16 percent in total dollars in Fiscal Year 2012—from $3.3 billion
           in Fiscal Year 2011 to $2.8 billion in Fiscal Year 2012. However, collections by the
           Automated Collection System were still nearly 18 percent greater than the five-year low
           of $2.4 billion in Fiscal Year 2008.
Figure 4 shows that both the Automated Collection System and Collection Field function made
the majority of Fiscal Year 2012 collections within the first year of receipt of the case within the
respective function, which has been the trend over the past five years.15 However, for Fiscal
Year 2012, the Automated Collection System had the least amount of collections in the first year
(as a percentage of its total collections) than in any of the past five years.16




15
     Time in function does not include time that each tax module may have spent in another IRS function.
16
     See Appendix IV, Figures 9 and 10.
                                                                                                           Page 7
                                         Trends in Compliance Activities
                                            Through Fiscal Year 2012



     Figure 4: Percentage of Dollars Collected by Number of Weeks the TDA Was
     Assigned to the Automated Collection System and Collection Field function




        Source: IRS Collection Report 5000-2. Percentages do not equal 100 percent due to rounding.

During Fiscal Year 2012, the IRS received more new TDAs than it closed. However, the gap
between TDA receipts and closures in Fiscal Year 2012 was 1,589,989 modules, which is
28 percent less than the five-year high of 2,211,046 modules in Fiscal Year 2010.17

Accounts Receivable
The amount of gross accounts receivable increased by nearly 4 percent (to $392 billion) in
Fiscal Year 2012. This is the smallest increase in the past five years. Gross accounts receivable
increased 9 percent and 5 percent in Fiscal Years 2010 and 2011, respectively.18 While the gross
accounts receivable has consistently increased, gross collections have also increased by 3 percent
and more than 4 percent in Fiscal Years 2011 and 2012, respectively.
Figure 5 shows the gross accounts receivable by source of assessment as of the end of Fiscal
Year 2012. As we have noted in prior reports, IRS records indicate that the only program
experiencing material fluctuation over the past five years is the Substitute for Return Program.
This return category experienced an increase from 26 percent of total accounts receivable in
Fiscal Year 2008 to nearly 33 percent in Fiscal Year 2012 as additional emphasis was placed on
the program.19




17
   See Appendix IV, Figure 16 and 18.
18
   See Appendix IV, Figure 2.
19
   See Appendix IV, Figure 3.
                                                                                                      Page 8
                                             Trends in Compliance Activities
                                                Through Fiscal Year 2012



                             Figure 5: Fiscal Year 2012 Percentage of
                          Accounts Receivable by Source of Assessment




                     Source: TIGTA analysis of data received from the Office of the Chief Financial Officer.
                     TFRP = Trust Fund Recovery Penalty.

TDI Collections
The number of TDI tax periods closed in Fiscal Year 2012 because delinquent tax returns were
received by the IRS has decreased by more than 23 percent since Fiscal Year 2011. A large part
of the decrease resulted from decreases in TDI closures by both the Collection Field function and
Compliance Services Collection Operations, which in turn was likely driven by an 18 percent
decrease in the overall number of TDI issuances in Fiscal Year 2012.20 Although the number of
TDI tax periods decreased, the number of taxpayers with TDIs in the Queue increased by
29 percent in Fiscal Year 2011 and by 6 percent in Fiscal Year 2012.21

The Queue
The number of taxpayers with TDAs in the Queue increased during Fiscal Year 2012 to
1.1 million accounts. This is 2 percent more than Fiscal Year 2011 but nearly 20 percent more
than the five-year low in Fiscal Year 2010.




20
     See Appendix IV, Figure 15.
21
     See Appendix IV, Figures 11 and 17.
                                                                                                               Page 9
                                            Trends in Compliance Activities
                                               Through Fiscal Year 2012



The amount owed in the Queue increased 22 percent and 12 percent in Fiscal Year 2011
($56.2 billion) and Fiscal Year 2012 ($63.1 billion),
respectively.22 Although many of the cases in the Queue
may be assigned to be worked, a significant number may          The dollar amount of
only be sent an annual reminder notice in attempt to             TDAs in the Queue
                                                               has grown 46 percent
resolve the delinquency. 23
                                                               in the past five years.
While the number of taxpayers with TDIs and TDAs in the
Queue has increased over the past three years, there have
been large decreases in the shelved and surveyed cases. The number of TDI tax periods shelved
or surveyed from the Queue has decreased nearly 69 percent since Fiscal Year 2010, dropping
from slightly more than 819,000 to approximately 258,000. The number of TDA periods
shelved or surveyed decreased by 28 and 29 percent in Fiscal Years 2011 and 2012, respectively.
Balance due amounts related to these tax periods also decreased. However, the $5.9 billion
dollar value of these shelved tax periods represents a 74 percent increase over the past five years.

The Use of Liens, Levies, and Seizures
The IRS has decreased the overall use of liens, levies, and seizures over the past year. In Fiscal
Year 2012, the use of liens dropped more than 32 percent compared to Fiscal Year 2011 but is
down only 8 percent since Fiscal Year 2008. Both the Automated Collection System and
Collection Field function have decreased their use of liens over the past two years.
The Fiscal Year 2012 decrease in the overall use of liens is the largest decline in more than a
decade24 and is due to one of the IRS’s Fresh Start initiatives. Specifically, in Fiscal Year 2011,
the IRS increased the threshold for making lien filing determinations from $5,000 to $10,000.
The initiative was designed to help individuals and small business meet their tax obligations
without adding unnecessary burden.
Although the use of levies by the Collection Field function increased in recent years, both the
Automated Collection System and Collection Field function issued fewer levies during Fiscal
Year 2012. The total number decreased more than 21 percent, which includes a:
        13 percent decrease by the Collection Field function (to 713,994).
        23 percent decrease by the Automated Collection System (to 2,247,168).
While levies issued by the Automated Collection System have decreased every year since Fiscal
Year 2009 (when they reached 3,091,737), this is the first decline in levies issued by the

22
   The amount owed in the Queue in Fiscal Year 2008 was $43.2 billion.
23
   Before accounts get assigned to the Queue, the IRS has already sent notices to the taxpayer about the delinquency.
After the notice process, some cases go directly to the Queue, while others are worked in the ACS. Those cases in
the Queue that are not assigned may not receive contact aside from annual reminder notices.
24
   See Appendix IV, Figure 20.
                                                                                                           Page 10
                                            Trends in Compliance Activities
                                               Through Fiscal Year 2012



Collection Field function since Fiscal Year 2003. However, the use of levies by the Collection
Field function has still increased by 91 percent over the past five years.
Seizures also decreased in Fiscal Year 2012, by 6 percent (to 733), although they increased more
than 28 percent from Fiscal Year 2010 to 2011. The number of seizures continues to remain far
below the number prior to implementation of the IRS Restructuring and Reform Act of 1998.25
TIGTA reported in Fiscal Year 2011 that planned hiring during Fiscal Years 2011 and 2012 in
the Small Business/Self-Employed Division would barely cover attrition losses expected in those
years.26 Since then, the number of Collection Field function revenue officers working delinquent
cases has decreased 16 percent, from 4,068 employees in Fiscal Year 2010 to 3,397 employees in
Fiscal Year 2012.27

Examination Function Compliance Activities Showed Mixed Results
Examination is an important aspect of maintaining a voluntary tax compliance system. IRS
Oversight Board studies of taxpayer attitudes have shown that the fear of examination is a major
factor in influencing taxpayers to report taxes honestly. In Fiscal Year 2012, 63 percent of
taxpayers surveyed cited the fear of examination as a factor that influenced their voluntary
compliance. This is an increase compared to Fiscal Year 2011, when 59 percent of taxpayers
responded similarly. However, during Fiscal Year 2011, 14 percent of taxpayers believed it was
acceptable to cheat on their income taxes, which is the largest percentage in the past five years.
In Fiscal Year 2012, the percentage of taxpayers who believed this dropped to 11 percent.
After hiring almost 3,300 revenue agents and tax compliance officers in Fiscal Years 2009 and
2010, there have been fewer than 200 hired in these positions over the last two fiscal years,
which is the fewest number of new hires in over 10 years. The reduced hiring has contributed to
a 13 percent reduction in the overall number of Examination function personnel who conduct
examinations of tax returns.
From Fiscal Year 2010 to 2012, the number of:
        Revenue agents decreased 12 percent (from 11,648 to 10,216).
        Tax compliance officers decreased 17 percent (from 1,390 to 1,154).
Despite the reduction over the past two years, there were still more employees conducting
examinations of tax returns in Fiscal Year 2012 than there were five years ago.28


25
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
26
   TIGTA, Ref. No. 2011-30-039, Challenges Remain to Balance Revenue Officer Staffing With Attrition and
Workload Demands (May 2011).
27
   See Appendix IV, Figure 6.
28
   See Appendix IV, Figure 23.
                                                                                                          Page 11
                                       Trends in Compliance Activities
                                          Through Fiscal Year 2012



Overall, the number of tax returns examined decreased, and most examinations
were conducted via correspondence
A decrease in the number of examinations of tax returns coincided with the reduction in
examination employees. In Fiscal Year 2012, the IRS conducted 4 percent fewer examinations.
Most of this decline is attributable to a reduction in the number of individual tax return
examinations. Even with fewer employees, the IRS increased the numbers of corporate
(excluding S corporations), partnership, and S corporation examinations in each of the past
two years.
Figure 6 shows that Fiscal Year 2012 is the first year that the total number of field examinations
declined after reaching a five-year high in Fiscal Year 2011. Recent decreases in Examination
function hiring are beginning to affect the number of examinations. The decrease in employees
beginning in Fiscal Year 2010 has thus begun to affect the number of field examinations in
Fiscal Year 2012.
                   Figure 6: Percentage Change in the Number of
            Field Examiners and Examinations, Fiscal Years 2008 to 2012




                 Source: IRS Data Book and Examination Table 37.

IRS examinations can range from the issuance of an IRS notice asking for clarification of a
single tax return item that appears to be incorrect (correspondence examination) to a face-to-face
interview and review of the taxpayer’s records. Differentiating these two types of contact
between the IRS and taxpayers is important when reviewing examination coverage rates, and
caution should be taken in combining statistics from the various Examination function programs.
Face-to-face examinations are generally more comprehensive and time-consuming for the IRS
and taxpayers and typically result in higher dollar adjustments to the tax amounts. However,
during Fiscal Year 2012, 70 percent of all examinations were conducted via correspondence.

                                                                                           Page 12
                                            Trends in Compliance Activities
                                               Through Fiscal Year 2012



In addition to correspondence and face-to-face examinations, the IRS also uses several
computer-matching and automated error-checking routines to verify the accuracy of tax returns.29
These routines often identify adjustments to tax liabilities. However, these adjustments are not
included in the traditional “audit rates” and are not reported separately as enforcement efforts.
During Fiscal Years 2009 and 2010, there were significant temporary increases in certain types
of these contacts, associated with taxpayer math errors, due to the necessity of computing
recovery rebate credits and Making Work Pay Credits for those taxpayers who had not initially
claimed them on their tax returns. Predictably, the IRS experienced an associated decrease in
these contacts during Fiscal Years 2011 and 2012.

Examination rates for the various types of tax returns showed mixed results
The following paragraphs summarize examination coverage for various types of tax returns:
        Individual Income Tax Return Examinations – Fiscal Year 2012 is the second year of
         decreases in the number of individual income tax returns examined. However, the IRS
         examined 1,481,966 (one of every 97) tax returns in Fiscal Year 2012, which is still more
         than the 1,391,581 (one of every 99) tax returns examined in Fiscal Year 2008. The
         highest number of returns examined over the past five years was Fiscal Year 2010, in
         which 1,581,394 (one of every 90) returns were examined.30
         During Fiscal Year 2012, 81 percent of the examinations of individuals were performed
         by correspondence.31 Only one of every 522 individual income tax returns filed received
         a face-to-face examination, which is a 17 percent decrease compared with Fiscal
         Year 2011, when one of every 445 individual returns received a face-to-face examination.
        Corporate Income Tax Return Examinations – More corporate tax returns were examined
         during Fiscal Year 2012 than any of the past five years.32 The number of examinations
         has increased from a five-year low of 27,834 (1 of every 79 returns filed) in Fiscal
         Year 2009 to 31,916 (1 of every 61 filed) in Fiscal Year 2012, an increase of almost
         15 percent.33 Meanwhile, the number of corporate tax returns filed has decreased every
         year over the past five years. Filings decreased from 2,227,838 in Fiscal Year 2008 to
         1,956,647 in Fiscal Year 2012, a decrease of 12 percent.
         Over the past five years, the number of corporate tax returns examined with assets of less
         than $10 million has increased 3 percent, from 20,580 in Fiscal Year 2008 to 21,164 in

29
   See Appendix IV, Figures 47 and 48.
30
   This includes examinations conducted by employees located in field offices and campuses. See Appendix IV,
Figures 31 and 32.
31
   We computed this percentage using the audit technique to identify whether there was actual face-to-face contact
during the examination. This number differs from publicized reports that rely solely on the organizational code.
32
   This information excludes returns for foreign corporations, S Corporations, and Cooperative Associations.
33
   See Appendix IV, Figures 31, 37, and 38 for coverage by size of corporation.
                                                                                                           Page 13
                                           Trends in Compliance Activities
                                              Through Fiscal Year 2012



           Fiscal Year 2012. However, the number examined is almost 16 percent more than the
           five-year low of 18,298 that were examined in Fiscal Year 2009. While examinations
           have increased during this period, filings of corporations with assets of less than
           $10 million have decreased every year to a five-year low of 1,896,158 filings in Fiscal
           Year 2012.
           Over the past five years, the number of corporate tax returns examined with assets of
           $10 million and greater increased by more than 14 percent. Within this category,
           examinations of corporations with assets of $50 million to $250 million increased by
           more than 77 percent. IRS management indicated that this increase occurred because the
           examiners hired during Fiscal Years 2009 and 2010 became more experienced and
           therefore increased closures in this corporate asset range.
          S Corporation Tax Return Examinations – The number of S corporation tax returns
           examined has increased more than 30 percent over the past five years, growing from
           16,634 in Fiscal Year 2008 to 21,656 in Fiscal Year 2012. After examinations decreased
           in Fiscal Year 2010, they have increased 33 percent in the last two years. In Fiscal
           Year 2010, one of every 270 S corporation returns filed were examined, compared with
           one of every 206 filed in Fiscal Year 2012. S corporation return filings continually
           increased from Fiscal Year 2008 through 2012 and are up 8 percent since Fiscal
           Year 2008.34
          Partnership Return Examinations – The number of partnership returns filed increased
           by 12 percent from Fiscal Year 2008 to 2012. Examinations of partnership returns
           increased more than 21 percent (to 16,691) in the past year and have increased 35 percent
           over the five-year low of 12,406 in Fiscal Year 2010. Nearly one of every 276 returns
           filed in Fiscal Year 2010 were examined. This increased to one of every 211 in Fiscal
           Year 2012.35
          Other Tax Type Examinations (fiduciary, employment, excise, estate, and gift taxes) –
           After a 17 percent decrease in the overall number of examinations in these five classes in
           Fiscal Year 2008, the number of examinations has increased 17 percent in the years since
           then. Increases in the employment and excise classes of 1 and 12 percent, respectively,
           since Fiscal Year 2011 were supplemented by a 74 percent increase in fiduciary
           examinations during the same period. The increase in fiduciary examinations followed a
           45 percent decrease from Fiscal Year 2010 to 2011.
           Gift tax examinations have increased every year since Fiscal Year 2009 and have nearly
           tripled since Fiscal Year 2008. Even as examinations have increased, the number of gift
           tax filings has decreased 13 percent since Fiscal Year 2008. The number of estate tax


34
     See Appendix IV, Figures 31 and 40.
35
     See Appendix IV, Figures 31 and 41.
                                                                                             Page 14
                                             Trends in Compliance Activities
                                                Through Fiscal Year 2012



           return examinations has decreased by 2 percent since Fiscal Year 2008, which is less than
           the decrease of 73 percent in filings of such returns. Estate tax return examinations
           decreased more than 10 percent in Fiscal Year 2012, offsetting a 16 percent increase in
           Fiscal Year 2009.36

Most Examination function productivity indicators decreased
Figure 7 shows the dollar yield per hour for Fiscal Years 2008 through 2012 for revenue agents
and tax compliance officers. The examination function dollar yield per hour for revenue agent
examinations of both individual and corporations has declined since reaching five-year highs in
Fiscal Year 2009. The Fiscal Year 2012 dollar yield per hour for examinations of individual tax
returns decreased by 2 percent for revenue agents, which followed a 30 percent decrease in
Fiscal Year 2011.
                                    Figure 7: Examination Function
                                         Dollar Yield per Hour




                 Source: TIGTA analysis of Examination Table 37.

The dollar yield per hour for the examination of corporate tax returns has also decreased from a
five-year high in Fiscal Year 2009. The yield decreased 29 percent and 17 percent in Fiscal
Years 2011 and 2012, respectively. Overall, the yield of revenue agent examinations of
corporate tax returns is down 47 percent since Fiscal Year 2009.37
The decrease in the dollar yield per hour by revenue agents may be attributed to decreases in the
dollar amounts per return. Individual returns went from a high of $44,311 in Fiscal Year 2009 to
$30,765 (a decrease of 31 percent) in Fiscal Year 2012. Corporate tax return dollars are down
49 percent during the same period.

36
     See Appendix IV, Figures 31 and 42 through 46.
37
     See Appendix IV, Figure 26.
                                                                                            Page 15
                                               Trends in Compliance Activities
                                                  Through Fiscal Year 2012



The dollar yield per hour for tax compliance officer examinations of individual returns has not
changed materially over the past three years but was 18 percent higher in Fiscal Year 2012 than
in Fiscal Year 2008. The dollar amount per return attributed to these individual returns has also
increased 18 percent, while the hours per return has not fluctuated more than one hour during the
same period.38
The dollar yield per hour for revenue agent examinations of partnership returns decreased by
25 percent and 19 percent in Fiscal Years 2010 and 2011, respectively. However, it increased
more than 10 percent in Fiscal Year 2012. Dollars per tax return for revenue agent examinations
of partnership tax returns decreased more than 37 percent in Fiscal Year 2011 but was up more
than 31 percent in Fiscal Year 2012. The dollars reported per tax return also decreased for
S corporation examinations, which in turn decreased the dollar yield per hour by 23 percent and
18 percent in Fiscal Years 2011 and 2012, respectively.
One important measure of audit productivity is the percentage of audited tax returns that result in
recommended adjustments to the tax return. The IRS associates a high percentage of audited tax
returns that result in recommended adjustments with greater audit productivity, while audits that
result in no change are considered unproductive. The no-change rates for:
          Revenue agent examinations of individual tax returns reached a five-year high in Fiscal
           Year 2008 (12 percent). Since then, the no-change rate decreased in Fiscal Year 2009
           (10 percent), increased in Fiscal Year 2010 (11 percent), decreased in Fiscal Year 2011
           (8 percent), and increased in Fiscal Year 2012 (11 percent).
          Tax compliance officer examinations of individual tax returns has remained at either 9 or
           10 percent over the same five-year period.
          Revenue agent examinations of corporate tax returns has remained the same over the past
           three fiscal years and matches the rate reported in Fiscal Year 2008.39
          Revenue agent examinations of partnership returns increased during Fiscal Year 2010
           and Fiscal Year 2011 to 44 percent and 48 percent, respectively. This rate dropped back
           to 44 percent in Fiscal Year 2012.
          Revenue agent examinations of S corporations were 33 percent of examinations for both
           Fiscal Year 2010 and Fiscal Year 2012 and 39 percent for Fiscal Year 2011.
TIGTA conducted separate reviews in Fiscal Year 2012 of both S corporations and partnerships
examinations to determine whether Small Business/Self-Employed Division examiners were




38
     See Appendix IV, Figures 25 through 28.
39
     See Appendix IV, Figure 29.
                                                                                            Page 16
                                        Trends in Compliance Activities
                                           Through Fiscal Year 2012



conducting audits of these entities in accordance with policies and procedures.40 TIGTA noted
no significant quality problems during the reviews. However, TIGTA recommended that the
IRS begin analyzing partnership and S corporation data files to identify whether the most
productive returns are selected for audit.

Conclusion
The IRS faced many challenges during Fiscal Years 2011 and 2012, including implementing
provisions related to new tax legislation and operating with fewer resources and employees.
Several indicators showed the effect of these challenges, including a decrease in enforcement
revenue, a continued increase in accounts receivable, an increase in the number of cases that
might never be worked, and a decrease in the overall number of examinations. Nevertheless,
many indicators increased, including gross collections and the examinations of certain tax
returns. Some of these trends are cause for concern, especially given that diminished
enforcement could also affect voluntary compliance over time.




40
  TIGTA, Ref. No. 2012-30-062, The Recommended Adjustments From S Corporation Audits Are Substantial, but
the Number of No-Change Audits Is a Concern (June 2012); TIGTA, Ref. No. 2012-30-060, Despite Some
Favorable Partnership Audit Trends, the Number of No-Change Audits Is a Concern (June 2012).
                                                                                                  Page 17
                                               Trends in Compliance Activities
                                                  Through Fiscal Year 2012



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to provide various statistical information regarding
Collection and Examination function activities. To accomplish our objective, we.
I.         Obtained and analyzed Collection function data. This included, but was not limited to:
           A. Staffing.
           B. Direct and indirect time.
           C. Delinquent account inventories and unfiled return investigations.
           D. Enforcement actions (liens, levies, and seizures).1
II.        Obtained and analyzed Examination function data. This included, but was not limited to:
           A. Staffing.
           B. Direct and indirect time.
           C. Coverage of individual and business tax returns compared to the number of returns
              filed for each type of return.
           D. Productivity results for individual and business tax returns.
III.       Obtained and analyzed other Compliance data. This included, but was not limited to:
           A. Enforcement revenue.
           B. Gross collections and accounts receivable.
           C. Math Error, Underreporter, and Automated Substitute for Return cases.
IV.        Reviewed applicable TIGTA and Government Accountability Office reports for relevant
           information.
V.         Discussed aberrations in the data with applicable IRS personnel.




1
    See Appendix VI for a glossary of terms.
                                                                                            Page 18
                                    Trends in Compliance Activities
                                       Through Fiscal Year 2012



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not assess internal
controls because doing so was not applicable within the context of our objective. Our analyses
were limited to identifying changes and trends in data prepared and reported by the IRS.




                                                                                        Page 19
                                  Trends in Compliance Activities
                                     Through Fiscal Year 2012



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Timothy F. Greiner, Audit Manager
Curtis J. Kirschner, Lead Auditor
Mathew Schimmel, Senior Auditor
Bridgid Shannon, Auditor




                                                                                    Page 20
                                  Trends in Compliance Activities
                                     Through Fiscal Year 2012



                                                                       Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large Business and International Division SE:LB
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                             Page 21
                                                Trends in Compliance Activities
                                                   Through Fiscal Year 2012



                                                                                                         Appendix IV

             Detailed Charts of Statistical Information

Figure 1 – Gross Collections by Type of Tax .............................................................. Page 25
Figure 2 – Amount of Enforcement Revenue Collected Compared to
           Gross Accounts Receivable ........................................................................ Page 25
Figure 3 – Gross Accounts Receivable by Source of Assessment ............................... Page 26
Figure 4 – Total Amount Collected During Notice Status........................................... Page 26
Figure 5 – Amount Collected During Notice Status for Selected Sources
           of Assessment ............................................................................................. Page 27
Figure 6 – Number of Collection Field Function Revenue Officers Assigned
           Delinquent Cases at the End of Each Year ................................................. Page 27
Figure 7 – Average Dollars Collected per Staff Year on TDA Tax Periods
           by the Collection Field Function ................................................................ Page 28
Figure 8 – Net Amounts Collected on TDA Tax Periods by the
           Collection Field Function and Automated Collection System ................... Page 28
Figure 9 – Total Dollars Collected by Number of Weeks Assigned to the
           Automated Collection System .................................................................... Page 29
Figure 10 – Total Dollars Collected by Number of Weeks Assigned to the
            Collection Field Function ........................................................................... Page 29
Figure 11 – Taxpayers With TDAs and TDIs Maintained in the Queue ....................... Page 30
Figure 12 – TDA and TDI Tax Periods Shelved or Surveyed ....................................... Page 30
Figure 13 – Gap Between TDI Tax Period Receipts and Closures, Including
            TDI Tax Period Closures as a Percentage of Receipts ............................... Page 31
Figure 14 – Number of TDI Tax Periods Closed by Collection Functions ................... Page 31
Figure 15 – Number of TDI Tax Periods Closed by Collection Functions
            With Receipt of a Delinquent Tax Return .................................................. Page 32



                                                                                                                    Page 22
                                                 Trends in Compliance Activities
                                                    Through Fiscal Year 2012



Figure 16 – Gap Between TDA Tax Period Receipts and Closures, Including
            TDA Closures as a Percentage of Receipts ................................................ Page 32
Figure 17 – Number of Taxpayers and Amount Owed in Queue Inventory.................. Page 33
Figure 18 – Number of TDA Tax Periods Closed by Collection Functions,
            Excluding Shelved Accounts ...................................................................... Page 33
Figure 19 – Number of TDA Tax Periods Closed With Full Payment by
            Collection Functions ................................................................................... Page 34
Figure 20 – Number of Liens Filed by the Collection Field Function and
            Automated Collection System .................................................................... Page 34
Figure 21 – Number of Levies Issued by the Collection Field Function and
            Automated Collection System .................................................................... Page 35
Figure 22 – Number of Seizures .................................................................................... Page 35
Figure 23 – Number of Examination Function Staff Conducting Examinations
            of Tax Returns at the End of Each Year ..................................................... Page 36
Figure 24 – Percentage Change From Fiscal Year 2008 of All Tax Returns Filed
            and Examined ............................................................................................. Page 36
Figure 25 – Revenue Agent Results on Forms 1040 (U.S. Individual Income
            Tax Return), Percentage Change From Fiscal Year 2008 .......................... Page 37
Figure 26 – Revenue Agent Results on Corporate Income Tax Returns,
            Percentage Change From Fiscal Year 2008 ............................................... Page 37
Figure 27 – Revenue Agent Results on Other Types of Tax Returns, Percentage
            Change From Fiscal Year 2008 .................................................................. Page 38
Figure 28 – Tax Compliance Officer Results on Forms 1040, Percentage Change
            From Fiscal Year 2008 ............................................................................... Page 38
Figure 29 – Revenue Agent and Tax Compliance Officer No-Change Rates for
            Various Types of Tax Returns .................................................................... Page 39
Figure 30 – Number of Forms 1040 Examined Face-to-Face or Through
            Correspondence .......................................................................................... Page 39
Figure 31 – Numbers and Percentages of Individual and Business Tax Returns
            Examined .................................................................................................... Page 40


                                                                                                                       Page 23
                                                Trends in Compliance Activities
                                                   Through Fiscal Year 2012



Figure 32 – Percentage Change From Fiscal Year 2008 of Forms 1040 Filed
            and Examined ............................................................................................. Page 41
Figure 33 – Number of Forms 1040 Filed and Examined ............................................. Page 41
Figure 34 – Percentage Change From Fiscal Year 2008 of
            Corporate Income Tax Returns Filed and Examined ................................. Page 42
Figure 35 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of Less Than $10 Million ................................. Page 42
Figure 36 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of $10 Million and Greater ............................... Page 43
Figure 37 – Number of Tax Returns Filed and Examined – Corporations With
            Assets of Less Than $10 Million ................................................................ Page 43
Figure 38 – Number of Tax Returns Filed and Examined – Corporations With
            Assets of $10 Million and Greater .............................................................. Page 44
Figure 39 – Percentage Change From Fiscal Year 2008 of Forms 1120S
            (U.S. Income Tax Return for an S Corporation) Filed and Examined ....... Page 44
Figure 40 – Number of Forms 1120S Filed and Examined ........................................... Page 45
Figure 41 – Number of Tax Returns Filed and Examined – Partnerships ..................... Page 45
Figure 42 – Number of Tax Returns Filed and Examined – Fiduciaries ....................... Page 46
Figure 43 – Number of Tax Returns Filed and Examined – Employment Tax ............. Page 46
Figure 44 – Number of Tax Returns Filed and Examined – Excise Tax ....................... Page 47
Figure 45 – Number of Tax Returns Filed and Examined – Estates.............................. Page 47
Figure 46 – Number of Tax Returns Filed and Examined – Gift Tax ........................... Page 48
Figure 47 – Number of Other Compliance Contacts on Forms 1040 ............................ Page 48
Figure 48 – Other Compliance Contacts – Forms 1040 Coverage Rate ........................ Page 49




                                                                                                                    Page 24
                                            Trends in Compliance Activities
                                               Through Fiscal Year 2012




                              Figure 1: Gross Collections by Type of Tax 1




                Source: TIGTA analysis of the IRS Data Book.



                        Figure 2: Amount of Enforcement Revenue Collected
                              Compared to Gross Accounts Receivable




               Source: Office of Research, Analysis, and Statistics and Chief Financial Officer.

1
  Income tax on estates and trusts is included in individual income tax in Fiscal Year 2008. Beginning with Fiscal
Year 2009, the IRS amended this reporting, and estate and trust income tax is reported separately. Estate and trust
income tax for Fiscal Year 2012 equaled approximately $16 billion. The total line includes excise, estate, and gift
taxes, not just individual, corporate, and employment.
                                                                                                            Page 25
                              Trends in Compliance Activities
                                 Through Fiscal Year 2012



    Figure 3: Gross Accounts Receivable by Source of Assessment




Source: TIGTA analysis of data received from the Office of the Chief Financial Officer.
TFRP = Trust Fund Recovery Penalty.


         Figure 4: Total Amount Collected During Notice Status




Source: Collection Report 5000-2/242.




                                                                                          Page 26
                            Trends in Compliance Activities
                               Through Fiscal Year 2012



           Figure 5: Amount Collected During Notice Status
                  for Selected Sources of Assessment




Source: Collection Report 5000-2/242. SFR = Substitute for Return.



  Figure 6: Number of Collection Field Function Revenue Officers
        Assigned Delinquent Cases at the End of Each Year




Source: Collection Report 5000-23.




                                                                     Page 27
                                            Trends in Compliance Activities
                                               Through Fiscal Year 2012



                         Figure 7: Average Dollars Collected per Staff Year
                        on TDA Tax Periods by the Collection Field Function




             Source: TIGTA analysis of Collection Reports 5000-2 and 5000-23.


                     Figure 8: Net Amounts Collected on TDA Tax Periods
               by the Collection Field Function and Automated Collection System 2




             Source: Collection Report 5000-2. ACS = Automated Collection System;
             CFf = Collection Field function.

2
 The dollars collected shown in Figure 8 are the net amounts collected after adjustments, such as refunds, are
considered. The amounts in Figures 9 and 10 are larger because they show the gross amounts collected.
                                                                                                           Page 28
                       Trends in Compliance Activities
                          Through Fiscal Year 2012



      Figure 9: Total Dollars Collected by Number of
     Weeks Assigned to the Automated Collection System




Source: Collection Report 5000-2.


       Figure 10: Total Dollars Collected by Number of
       Weeks Assigned to the Collection Field Function




Source: Collection Report 5000-2.

                                                         Page 29
                                           Trends in Compliance Activities
                                              Through Fiscal Year 2012



                                   Figure 11: Taxpayers With TDAs
                                  and TDIs Maintained in the Queue 3




              Source: Collection Reports 5000-2 and 5000-4.


                    Figure 12: TDA and TDI Tax Periods Shelved or Surveyed




              Source: TIGTA analysis of Collection Reports 5000-2 and 5000-4.



3
 In Fiscal Year 2010, the IRS removed from the Queue a large number of TDA cases that were considered to be
potentially less productive than other Queue inventory (see Figure 12). The decrease in TDAs could be at least
partially attributed to decreasing removals of these less productive cases.
                                                                                                         Page 30
                                           Trends in Compliance Activities
                                              Through Fiscal Year 2012



                Figure 13: Gap Between TDI Tax Period Receipts 4 and Closures,
                 Including TDI Tax Period Closures as a Percentage of Receipts 5




            Source: TIGTA analysis of Collection Report 5000-4.


            Figure 14: Number of TDI Tax Periods Closed by Collection Functions




            Source: TIGTA analysis of Collection Report 5000-4. CSCO = Compliance Services Collection
            Operations; ACS = Automated Collection System; CFf = Collection Field function.


4
  Collection Report 5000-4 does not count subsequent TDI tax periods added to an existing TDI as a new receipt, but
does correctly count them in the ending inventory.
5
  The closures shown in Figures 13 and 14 do not include the TDIs shelved or surveyed, which are shown in
Figure 12.
                                                                                                         Page 31
                                             Trends in Compliance Activities
                                                Through Fiscal Year 2012



                     Figure 15: Number of TDI Tax Periods Closed by Collection
                         Functions With Receipt of a Delinquent Tax Return




              Source: TIGTA analysis of Collection Report 5000-4. CSCO = Compliance Services Collection
              Operation; ACS = Automated Collection System; CFf = Collection Field function.

                  Figure 16: Gap Between TDA Tax Period Receipts and Closures,
                        Including TDA Closures as a Percentage of Receipts 6




               Source: TIGTA analysis of Collection Report 5000-2.




6
    The closures shown in Figure 16 do not include the TDAs shelved, which are shown in Figure 12.
                                                                                                     Page 32
                               Trends in Compliance Activities
                                  Through Fiscal Year 2012



Figure 17: Number of Taxpayers and Amount Owed in Queue Inventory




Source: TIGTA analysis of Collection Report 5000-2.


              Figure 18: Number of TDA Tax Periods Closed
            by Collection Functions, Excluding Shelved Accounts




Source: TIGTA analysis of Collection Report 5000-2. CSCO = Compliance Services Collection
Operations; ACS = Automated Collection System; CFf = Collection Field function.

                                                                                        Page 33
                             Trends in Compliance Activities
                                Through Fiscal Year 2012



              Figure 19: Number of TDA Tax Periods Closed
                With Full Payment by Collection Functions




Source: TIGTA analysis of Collection Report 5000-2. CSCO = Compliance Services Collection
Operations; ACS = Automated Collection System; CFf = Collection Field function.

                 Figure 20: Number of Liens Filed by the
       Collection Field Function and Automated Collection System




Source: TIGTA analysis of Collection Report 5000-23 and 5000-25. ACS = Automated Collection
System; CFf = Collection Field function.

                                                                                       Page 34
                             Trends in Compliance Activities
                                Through Fiscal Year 2012



               Figure 21: Number of Levies Issued by the
      Collection Field Function and Automated Collection System




Source: TIGTA analysis of Collection Report 5000-23 and 5000-24. ACS = Automated Collection
System; CFf = Collection Field function.



                       Figure 22: Number of Seizures




Source: TIGTA analysis of Collection Report 5000-23 and 5000-24.


                                                                                     Page 35
                            Trends in Compliance Activities
                               Through Fiscal Year 2012



    Figure 23: Number of Examination Function Staff Conducting
        Examinations of Tax Returns at the End of Each Year




 Source: TIGTA analysis of Examination Table 37.


         Figure 24: Percentage Change From Fiscal Year 2008
                of All Tax Returns Filed and Examined




Source: TIGTA analysis of the IRS Data Book.


                                                                 Page 36
                                               Trends in Compliance Activities
                                                  Through Fiscal Year 2012



                  Figure 25: Revenue Agent Results on Forms 1040 (U.S. Individual
                   Income Tax Return), Percentage Change From Fiscal Year 2008 7




                Source: TIGTA analysis of Examination Table 37.


                        Figure 26: Revenue Agent Results on Corporate Income
                        Tax Returns, Percentage Change From Fiscal Year 2008




                Source: TIGTA analysis of Examination Table 37.




7
    Figures 25 through 29 do not include results from Coordinated Industry Cases or training returns.
                                                                                                        Page 37
                                           Trends in Compliance Activities
                                              Through Fiscal Year 2012



                       Figure 27: Revenue Agent Results on Other Types 8
                   of Tax Returns, Percentage Change From Fiscal Year 2008




              Source: TIGTA analysis of Examination Table 37.


                          Figure 28: Tax Compliance Officer Results
                    on Forms 1040, Percentage Change From Fiscal Year 2008




              Source: TIGTA analysis of Examination Table 37.




8
 Other types of tax returns include estate, gift, employment, Form 1042 (Annual Withholding Tax Return for U.S.
Source Income of Foreign Persons), Form 1120-F (U.S. Income Tax Return of a Foreign Corporation), and excise.
                                                                                                       Page 38
                             Trends in Compliance Activities
                                Through Fiscal Year 2012



         Figure 29: Revenue Agent and Tax Compliance Officer
           No-Change Rates for Various Types of Tax Returns




Source: TIGTA analysis of Examination Table 37.


               Figure 30: Number of Forms 1040 Examined
                Face-to-Face or Through Correspondence




Source: Analysis of Examination Closed Case Database.




                                                               Page 39
                                         Trends in Compliance Activities
                                            Through Fiscal Year 2012



 Figure 31: Numbers and Percentages of Individual and Business Tax Returns Examined

                                                                    Fiscal Year

                                           2008           2009        2010          2011        2012

 Individual Returns

      Individuals (Forms 1040)          1,391,581       1,425,888   1,581,394     1,564,690   1,481,966

              Coverage Rate               1.01%          1.03%        1.11%        1.11%       1.03%

 Business Returns

   Corporations < $10 Million                  20,580     18,298       19,127       19,697      21,164

      Coverage Rate                            0.95%       0.85%        0.94%        1.02%       1.12%
   Corporations $10 Million and
                                                9,406       9,536      10,207       10,459      10,752
   Greater
      Coverage Rate                        15.26%         14.55%       16.58%       17.64%      17.78%
   S Corporations (Forms 1120S)                16,634     17,455       16,327       18,519      21,658
      Coverage Rate                            0.40%       0.40%        0.37%        0.42%       0.48%
   Partnerships                                13,203     12,855       12,406       13,770      16,691
      Coverage Rate                            0.42%       0.38%        0.36%        0.40%       0.47%
   Fiduciaries                                  4,582       5,259       5,298         2,909       5,070
      Coverage Rate                            0.12%       0.17%        0.17%        0.10%       0.17%
   Employment                                  60,346     64,021       63,937       66,234      66,997
      Coverage Rate                            0.20%       0.21%        0.21%        0.22%       0.23%
   Excise                                      16,134     17,267       18,249       19,571      22,014
      Coverage Rate                            1.80%       1.85%        2.33%        2.40%       3.26%
   Estates                                      3,852       4,468       4,288         4,195       3,762
      Coverage Rate                            8.14%       9.26%       10.12%       18.23%      29.90%
   Gift                                         1,071       1,569       1,777         2,623       3,164
      Coverage Rate                            0.42%       0.61%        0.74%        1.16%       1.42%
Source: TIGTA analysis of the IRS Data Book.




                                                                                                Page 40
                           Trends in Compliance Activities
                              Through Fiscal Year 2012



        Figure 32: Percentage Change From Fiscal Year 2008
                 of Forms 1040 Filed and Examined




Source: TIGTA analysis of the IRS Data Book.



       Figure 33: Number of Forms 1040 Filed and Examined




Source: TIGTA analysis of the IRS Data Book.




                                                             Page 41
                                         Trends in Compliance Activities
                                            Through Fiscal Year 2012



                     Figure 34: Percentage Change From Fiscal Year 2008
                    of Corporate Income Tax Returns Filed and Examined 9




             Source: TIGTA analysis of the IRS Data Book.


                  Figure 35: Percentage of Corporate Income Tax Returns
                Examined – Corporations With Assets of Less Than $10 Million




             Source: TIGTA analysis of the IRS Data Book.




9
 Excludes Form 1120S (U.S. Income Tax Return for an S Corporation), Form 1120-F, and Form 1120-C (U.S.
Income Tax Return of a Cooperative Association).
                                                                                                  Page 42
                           Trends in Compliance Activities
                              Through Fiscal Year 2012



    Figure 36: Percentage of Corporate Income Tax Returns
 Examined – Corporations With Assets of $10 Million and Greater




Source: TIGTA analysis of the IRS Data Book.


         Figure 37: Number of Tax Returns Filed and
  Examined – Corporations With Assets of Less Than $10 Million




Source: TIGTA analysis of the IRS Data Book.


                                                                  Page 43
                                             Trends in Compliance Activities
                                                Through Fiscal Year 2012



                          Figure 38: Number of Tax Returns Filed and
                  Examined – Corporations With Assets of $10 Million and Greater




                Source: TIGTA analysis of the IRS Data Book.


               Figure 39: Percentage Change From Fiscal Year 2008 of Forms 1120S
                (U.S. Income Tax Return for an S Corporation) Filed and Examined 10




                Source: TIGTA analysis of the IRS Data Book.



10
     The increase in returns examined coincided with a compliance study of Forms 1120S.
                                                                                          Page 44
                          Trends in Compliance Activities
                             Through Fiscal Year 2012



       Figure 40: Number of Forms 1120S Filed and Examined




 Source: IRS Data Book.


Figure 41: Number of Tax Returns Filed and Examined – Partnerships




Source: IRS Data Book.




                                                                     Page 45
                          Trends in Compliance Activities
                             Through Fiscal Year 2012



Figure 42: Number of Tax Returns Filed and Examined – Fiduciaries




 Source: IRS Data Book.


                Figure 43: Number of Tax Returns Filed
                   and Examined – Employment Tax




Source: IRS Data Book.




                                                                    Page 46
                         Trends in Compliance Activities
                            Through Fiscal Year 2012



Figure 44: Number of Tax Returns Filed and Examined – Excise Tax




Source: IRS Data Book.


 Figure 45: Number of Tax Returns Filed and Examined – Estates




Source: IRS Data Book.




                                                                   Page 47
                                            Trends in Compliance Activities
                                               Through Fiscal Year 2012



               Figure 46: Number of Tax Returns Filed and Examined – Gift Tax




              Source: IRS Data Book.


              Figure 47: Number of Other Compliance Contacts on Forms 1040 11




              Source: IRS Data Book. ASFR = Automated Substitute for Return.

11
  The spike in Fiscal Year 2009 is at least partially due to eligible taxpayers whose circumstances changed and who
may have claimed a recovery rebate credit to receive some or the entire unpaid portion of an economic stimulus
payment. The Fiscal Year 2009 data include cases where the rebate recovery credit was not claimed on tax returns,
but the IRS computed the credit for eligible taxpayers. In Fiscal Year 2010, the Making Work Pay Tax Credit was a
refundable tax credit based on earned income. The Fiscal Year 2010 data include cases for which the Making Work
Pay Tax Credit was not initially claimed on tax returns, but the IRS subsequently computed the credit for eligible
taxpayers.
                                                                                                          Page 48
                                  Trends in Compliance Activities
                                     Through Fiscal Year 2012



      Figure 48: Other Compliance Contacts – Forms 1040 Coverage Rate

                                                       Fiscal Year

                             2008          2009           2010        2011         2012

Math Error                2,801,427     12,049,948      8,445,374    4,998,266   2,042,458

 Coverage Rate                2.02%            7.81%       5.86%        3.54%       1.42%

Underreporter             3,530,000      3,621,000      4,336,000    4,703,000   4,525,000

 Coverage Rate                2.54%            2.35%       3.01%        3.33%       3.15%

Automated                 1,300,000      1,385,000      1,175,000    1,395,000    803,000
Substitute for Return

 Coverage Rate                0.94%            0.90%       0.82%        0.99%       0.56%

Source: TIGTA analysis of the IRS Data Book.




                                                                                          Page 49
                                   Trends in Compliance Activities
                                      Through Fiscal Year 2012



                                                                            Appendix V

         Prior Treasury Inspector General for Tax
        Administration Compliance Trends Reports

Management Advisory Report: Evaluation of Reduction in the Internal Revenue Service’s
Compliance Activities (Reference Number 2000-30-075, dated May 12, 2000).
Management Advisory Report: Tax Return Filing and Examination Statistics (Reference
Number 2001-30-175, dated September 21, 2001).
Management Advisory Report: Analysis of Trends in Compliance Activities Through Fiscal
Year 2001 (Reference Number 2002-30-184, dated September 30, 2002).
Trends in Compliance Activities Through Fiscal Year 2002 (Reference Number 2003-30-078,
dated March 31, 2003).
Trends in Compliance Activities Through Fiscal Year 2003 (Reference Number 2004-30-083,
dated April 23, 2004).
Trends in Compliance Activities Through Fiscal Year 2004 (Reference Number 2005-30-055,
dated March 30, 2005).
Trends in Compliance Activities Through Fiscal Year 2005 (Reference Number 2006-30-055,
dated March 27, 2006).
Trends in Compliance Activities Through Fiscal Year 2006 (Reference Number 2007-30-056,
dated March 27, 2007).
Trends in Compliance Activities Through Fiscal Year 2007 (Reference Number 2008-30-095,
dated April 18, 2008).
Trends in Compliance Activities Through Fiscal Year 2008 (Reference Number 2009-30-082,
dated June 10, 2009).
Trends in Compliance Activities Through Fiscal Year 2009 (Reference Number 2010-30-066,
dated June 10, 2010).
Trends in Compliance Activities Through Fiscal Year 2010 (Reference Number 2011-30-071,
dated July 18, 2011).




                                                                                      Page 50
                                      Trends in Compliance Activities
                                         Through Fiscal Year 2012



                                                                                   Appendix VI

                                Glossary of Terms

Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Automated Substitute for Return System – A system designed to assess taxes on wage earners
who fail to file tax returns. It analyzes information submitted to the IRS and historical tax return
information.
Budget Justification – For any given fiscal year, the budget request is submitted to the IRS
Oversight Board, the Department of the Treasury, the Office of Management and Budget, and
Congress; this is referred to as the Congressional Justification. Revisions are made to the budget
request throughout this process based on approved funding levels from these external entities
prior to the final Congressional Justification.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Field function – The unit in the field offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Compliance Services Collection Operations – An IRS function that mails the balance due and
return delinquency notices to taxpayers and analyzes and responds to taxpayer correspondence.
This function was formerly known as the Service Center Collection Branch.
Computing Centers – IRS facilities that support tax processing and information management
through a data processing and telecommunications infrastructure.
Coordinated Industry Case – An Examination function classification used for the largest and
most complex corporations.
Corporate Income Tax Return – Form 1120, U.S. Corporation Income Tax Return. It is used
by corporations to report the corporate income tax.
Dollar Yield per Hour – The amount of tax adjustments on tax returns divided by the number of
hours spent examining those returns.




                                                                                            Page 51
                                              Trends in Compliance Activities
                                                 Through Fiscal Year 2012



Employment Tax Returns – Various Form 94X return series (primarily Form 940, Employer’s
Annual Federal Unemployment (FUTA) Tax Return, and Form 941, Employer’s QUARTERLY
Federal Tax Return) filed by businesses to report things such as employer’s Federal
unemployment taxes and Federal taxes withheld.
Enforcement Revenue – Any tax, penalty, or interest received from a taxpayer as a result of an
IRS enforcement action (usually an examination or a collection action).
Estate Tax Return – Form 706, United States Estate (and Generation-Skipping Transfer) Tax
Return, is filed for estates of certain deceased persons.
Examination (Face-to-Face) – Field examinations of individuals, partnerships, or corporations
that occur either at the taxpayer’s place of business or through interviews at an IRS office.
Excise Tax Return – Form 720, Quarterly Federal Excise Tax Return, is used to report and pay
certain taxes, such as those on transportation and fuel.
Fiduciary Income Tax Returns – Income tax returns filed for estates and trusts.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
Gift Tax Return – Form 709, United States Gift (and Generation-Skipping Transfer) Tax
Return, is used to report transfers subject to the Federal gift taxes and to calculate the taxes due
on those transfers.
Gross Accounts Receivable – Includes all unpaid tax, with accrued penalties and interest, on
taxpayers’ delinquent accounts.
Health Insurance Reform Implementation Fund – A fund available to pay administrative
expenses incurred by Federal agencies in the immediate implementation, upon enactment, of the
Patient Protection and Affordable Care Act of 20101 and the Health Care and Education
Reconciliation Act of 2010,2 whether such expenses are incurred by the Department of Health
and Human Services or by other Federal agencies. The fund was created in the Patient
Protection and Affordable Care Act and enabled agencies to begin implementation immediately
and not wait for funding in the regular appropriations cycle.
Individual Income Tax Returns – Form 1040, U.S. Individual Income Tax Return, series are
annual income tax returns filed by citizens or residents of the United States.
Internal Revenue Code – Title 26 of the United States Code enacted by Congress containing all
relevant rules pertaining to estate, excise, gift, income, payroll, and sales taxes.



1
    Pub. L. No. 111-148, 124 Stat. 119 (2010).
2
    Pub. L. No. 111-152, 124 Stat. 1029 (2010).
                                                                                              Page 52
                                      Trends in Compliance Activities
                                         Through Fiscal Year 2012



IRS Data Book – Provides information on returns filed and taxes collected, enforcement,
taxpayer assistance, the IRS budget and workforce, and other selected activities.
IRS Oversight Board – A nine-member independent body charged to oversee the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of Internal Revenue laws and to provide experience, independence, and stability to the IRS so it
may move forward in a cogent, focused direction.
Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.
Lien – An encumbrance on property or rights to property as security for outstanding taxes.
Math Error Program – A process in which the IRS contacts taxpayers through the mail or by
telephone when it identifies mathematical errors or mismatches of taxpayer information that
would result in tax changes.
No-Change Rate – Percentage of examinations where the examiner closed the case with no
recommended tax change.
Overhead Staff – Support staff performing indirect duties within the function such as
automation support, technical support, and quality review.
Partnership Return – Form 1065, U.S. Return of Partnership Income, is used to report the
income and expenses of domestic partnerships and the share distributed to each partner.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign the cases for contact.
Revenue Agent – An employee in the Examination function who conducts face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes (e.g., excise tax returns).
Revenue Officer – An employee in the Collection Field function who attempts to contact
taxpayers and resolve collection matters that have not been resolved through notices sent by the
IRS campuses or the Automated Collection System.
Revenue Officer Examiner – A revenue officer who has been trained to conduct examinations
of employment tax returns.
S Corporation Tax Return – Form 1120S, U.S. Income Tax Return for an S Corporation, is
filed by qualifying small business corporations and includes amounts distributed to shareholders.
Seizure – The taking of a taxpayer’s property to satisfy his or her outstanding tax liability.
Shelved or Surveyed Cases – Delinquent unpaid accounts or investigations of unfiled tax
returns that have been taken out of the Collection function inventory because they are of lower
priority than other available inventory.

                                                                                             Page 53
                                     Trends in Compliance Activities
                                        Through Fiscal Year 2012



Substitute for Return/6020(b) Return – Tax returns prepared by the IRS, based on Internal
Revenue Code provisions, when taxpayers appear to be liable for taxes but have not voluntarily
filed the returns.
Tax Compliance Officer/Tax Auditor – An employee in the Examination function that
primarily conducts examinations of individual taxpayers through interviews at IRS field offices.
The position title was changed in 2002 from tax auditor to tax compliance officer.
Tax Examiner – In the context of this report, an employee located in a field office who conducts
examinations through correspondence. However, the tax examiner position is also used for
many other types of positions located in various IRS offices.
Tax Gap – The difference between what taxpayers should have paid and what they timely paid.
Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.
Tax Year – A 12-month accounting period for keeping records on income and expenses used as
the basis for calculating the annual taxes due. For most individual taxpayers, the tax year is
synonymous with the calendar year.
Taxpayer Delinquency Investigation – An unfiled tax return(s) for a taxpayer. One TDI exists
for all delinquent tax periods for a taxpayer.
Taxpayer Delinquent Account – A balance due account of a taxpayer. A separate TDA exists
for each delinquent tax period.
Trust Fund Recovery Penalty – When a company does not pay the taxes it withholds from
employee wages, such as Social Security or individual income tax, the IRS has the authority to
assess all responsible corporate officers individually for the taxes withheld via the Trust Fund
Recovery Penalty.
 




                                                                                              Page 54
